No.

0-778

FILED
JAN 1 9 2021
OFFICE OF THE CLERK
SUPREME COURT US

IN IHE
SUPREME COURT OF THE UNITED STATES

RONALD W. GREER,
Petitioner,
vs.
SHERIE KORNEMAN,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR THE EIGHTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI

Ronald W. Greer #165571
Missouri Department of Corrections
Western Missouri Correctional Center
609 East Pence Road
Cameron, Missouri 64429
(816) 632-1390

RECEIVED
JAN 2 7 2021

QUESTIONS. PRESENTED

I.

HAS A PETITIONER SUBSTANTIALLY SHOWN THE DENIAL OF A CONSTITUTIONAL
RIGHT WARRANTING ISSUANCE OF A COA WHEN THE DISTRICT COURT AFFORDS
DEFERENCE TO THE DETERMINATIONS OF THE STATE COURT, YET THE STATE
COURT RELIED ON THE OUTCOME DETERMINATIVE TEST TO FIND THAT THE
ADMISSION OF STATEMENTS OBTAINED BY THE DEFENDANT IN VIOUTION OF
MIRANDA V. ARIZONA WAS ERROR, BUT THEN APPLIED THE HARMLESS ERROR
STANDARD TO FIND NO PREJUDICE BASED ON MERELY SUBSTANTIAL EVIDENCE
OF THE DEFENDANT GUILT?

II.

HAS A PETITIONER SUBSTANTIALLY SHOWN THE DENIAL OF A CONSTITUTIONAL
RIGHT WARRANTING ISSUANCE OF A COA WHEN THE DISTRICT COURT AFFORDS
DEFERENCE TO THE DETERMINATIONS OF THE STATE COURT WHICH FOUND NO
PREJUDICE BY THE IMPROPER ADMISSION OF THE DEFENDANT'S INVOCATION
OF SILENCE IN VIOUTION OF DOYLE V. OHIO, BUT DID NOT CONSIDER THAT
THERE WERE NUMEROUS DOYLE VIOUTIONS WHICH OCCURRED WITHOUT A
CURATIVE INSTRUCTION BEING GIVEN?

II.

HAS A PETITIONER SUBSTANTIALLY SHOWN THE DENIAL OF A CONSTITUTIONAL
RIGHT WARRANTING ISSUANCE OF A COA WHEN THE DISTRICT COURT DOES NOT
APPOINT COUNSEL OR HOLD AN EVIDENTIARY HEARING ON A PETITIONER'S CUIM
BASED ON NEWLY DISCOVERED EVIDENCE SHOWING PRIMA FACIE THAT COUNSEL
APPOINTED TO REPRESENT HIM AT ALL CRITICAL STAGES OF STATE COURT
PROCEEDINGS SUFFERED FROM A CONCURRENT CONFLICT OF INTEREST FALLING
WITHIN CUYLER V. SULLIVAN BY ASSIGNMENT OF TOO MANY CASES, WHICH THE
STATE SUPREME COURT HAS HELD INEVITABLY CREATES THE VERY CONFLICT OF
INTEREST UNDER WHICH COUNSEL LABORED?

i

LIST OF PARTIES
All parties appear in the caption of the case on the cover.

ii

TABLE OF CONTENTS

Opinion Below

1

Jurisdiction

1

Constitutional Provisions Involved

2

Statement of the Case

3

Reasons for Granting the Writ

5

Question I .................

5

Question II ...............

7

Question III

10

Conclusion

15

iii

TABLE OF AUTHORITIES

Arizona v. Fulminante, 499 U.S. 279 (1991)

....

6

Barefoot v. Estelle, 463 U.S. 880 (1983)

........

Bass v. Nix, 909 F.2d 297 (8th Cir. 1990)

.......

7-8

Brecht v. Abrahamson, 507 U.S. 619 (1993)

.......

14

Chapman v. California, 386 U.S. 18 (1967)

.......

5

13-14

Clark v. Bertsch, 780 F.3d 873 (8th Cir. 2015)

9

Cox v. Norris, 133 F.3d 565 (8th Cir. 1997)

10,13

Cuyler v. Sullivan, 466 U.S. 335 (1980)
Doyle v. Ohio, 426 U.S. 610 (1976)

...

..........

11

..................

6-8,14

Ervin v. Bowersox, 892 F.3d 979 (8th Cir. 2018)

8

Gruenewald v. United States, 353 U.S. 391 (1957)

9

Miranda v. Arizona, 384 U.S. 486 (1966)

..........

5

Murray v. Carrier, 477 U.S. 478 (1986)

............

12

Randolph v. Kemna, 276 F.3d 401 (8th Cir. 2002)

13

Slack v. McDaniel, 529 U.S. 473 (2000)

6,10,13-14

............

Strickland v. Washington, 466 U.S. 668 (1984)
Wood v. Georgia, 450 U.S. 261 (1981)

.

11,14

............... .

12

STATUTES AND RULES

U.S. CONST., AMEND. V .

2,6-7,9-10

U.S. CONST., AMEND. VI ,

2.11.13-14

U.S. CONST., AMEND. XIV
28 U.S.C. § 1257 ........

2.10.13-14
1

28 U.S.C. § 2253

.........

:
iv

6,13

PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES SUPREME COURT

Petitioner, Ronald W. Greer, respectfully prays that a Writ of Certiorari
issue to review the judgment of the Eighth Circuit for the United States Court of
Appeals which issued on October 20, 2020 in no. 20-1557 and denied reconsideration
of its judgment denying him a Certificate of Appealability on September 1, 2020 from
the judgment of the U.S. District Court, Western District of Missouri in case no.
19-00675-CV-W-NKL-P, which issued on February 18, 2020 denying Ronald's petition for
habeas relief (28 U.S.C. § 2254) and a Certificate of Appealability-("COA").

OPINION BELOW

The U.S. District Court denied Ronald's petition for habeas relief (28 U.S.C.
§ 2254) and a C0A, thereby affirming the judgments and sentences affirmed in the
Western District, Missouri Court of Appeals, i.in case no.'s WD76945 and WD80462.
Opinion appears at Appendix A hereto,

The

On September 1, 2020, the Eighth Circuit, Court

of Appeals denied Ronald's application for C0A in case no. 20-1557, which appears at
Appendix B hereto, and on October 20, 2020, denied his petition for reconsideration
shown at Appendix C hereto.

Because institutional posture and COVID-19 protocols

prevented Ronald from filing this petition by the December 20, 2020 deadline, he filed
a motion for an additional 30 days, or until JanuaryJ|0>, 2021, to file this petition.

JURISDICTION

Assuming the Court grants Ronald until January %9, 2021 to file this petition
the jurisdiction of this Court is invoked pursuant to 28 U.S.C. § 1257(a).
1

CONSTITUTIONAL PROVISIONS INVOLVED

The following Constitutional provisions are involved in this case.

U.S. CONST., AMEND. V
No person shall be held to answer for a capital, or otherwise infamous
crime, unless on a presentment or indictment of a grand jury, except in
cases arising in the land or naval forces, or in the militia, when in actual
service in time of war or public danger; nor shall any person be subject for
the same offence to be twice put in jeopardy or life or limb; nor shall be
compelled in any criminal case to be a witness against himself, nor be
deprivedof life, liberty, or property, without due process of law; nor
shall private property be taken for public use, without just compensation.
U.S. CONST., AMEND. VI
In all criminal prosecutions, the accused shall enjoy the right to a speedy
and public trial, by an impartial jury of the state and sitrict wherein the
crime shall have been committed, which district shall have been previously
ascertained by law, and to be informed of the nature and cause of the
accusation, to be confronted with the witnesses against him; to have
compulsory process for obtaining witnesses in his favor, and to have the
assistance of counsel for his defense.
U.S. CONST., AMEND. XIV
Section 1. _ Ali persons bom or naturalized in the United States, and subject
to the jurisdiction thereof, are citizens of the United States and of the state
wherein they reside. No state shall make or enforce any law which shall abridge
the privileges or immunities of citizens of the United States; nor shall any
state deprive any person of life, liberty, or property, without due process of
law; nor deny to any person within its jurisdiction the equal protection of the

2

STATEMENT OF THE CASE

Ronald Greer was charged with the forcible rape and forcible sodomy of JW,
two counts of armed criminal action, and resisting arrest in Pettis County, Missouri
case no. 12PT-CR00583-01.

According to the trial testimony of JW, the State's only

eyewitness, she was jogging on a trail when Ronald, who she had encountered a few
days before, approached her, held a pocketknife handle against her throat, and forced
her through nearby woods and into a clearing where he pulled down JW's shorts and
underwear, repeatedly put his finger in her vagina, and fondled her breasts before he
put his penis in her vagina.

JW also testified that Ronald put his penis in her

mouth, ejaculated and forced her swallow.

JW said Ronald then got up and ran towards

the trail after he warned her not to tell anyone what had happened or he would harm
her children.

When JW was examined at a hospital later that day, the examining nurse

found nothing inconsistent with consensual sexual interaction.

Tests of JW's under­

wear also indicated the presence of DNA consistent with Ronald's profile.
Ronald was arrested at a nearby park on the evening of the incident.
pocketknife was recovered from his pocket during a search incident to arrest.

A folding
At the

police station, where Ronald was handcuffed to a bench in the booking room, security
video recorded him saying that he needed to be caught.

Ronald also told a detective

that he was not upset with police for his arrest because he deserved it.

Ronald's

statements were presented to the jury.
Jurors were also shown a video and were allowed to refer to a transcript of a
brief interview between Ronald and the detective, who had Mirandized him before asking
questions.

This interview, which occurred in a different room than the booking area,

lasted approximately five minutes.

3

When the detective confronted Ronald with information that a woman had accused
him.of raping her, he immediately ended the interview and told the detective that
there was no sense in continuing because, regardless what the alleged victim had
claimed, she was not going to get anything more out of him.
A video of Ronald's interview was played for the jury, and jurors were
provided with a transcript of that video to refer to during deliberations.

Defense

counsel did not object to admission of the video or the transcript which allowed the
jury to view and read about his invocation of silence
Ronald was then transported to a hospital for a post-rape exam where he again
refused to talk with officers about the case.

Four days later, Ronald was questioned

about the rape allegations by his parole officer, who did not Mirandize him before
questioning him.

Trial counsel moved to suppress Ronald's statements to his parole

officer on the bases that he was in custody, he had not been Mirandized, and he had
already invoked his right to silence, which the trial court overruled ostensibly
because Greer had not previously invoked his right to silence before speaking with
the parole officer.

According to the testimony of the parole officer, while Ronald

did not make an outright admission that he had raped anyone, he did ask for her help
so that he could be placed in the Sexually Violent Pradator Unit.
During closing argument the prosecutor reminded the jury of Ranald's reaction
when confronted with a direct accusation of guilt: "When Detective Green said, ’Well,
I'll be super honest with you, we’ve got a girl that says you raped her tonight.'
Picture what an innocent person would do. Picture the reaction of an innocent man and
then remember the defendant's reaction as he calmly sat there and simply said, :
'Tonight? t m

4

Similarly, the prosecutor told jurors that when Ronald' s'parole officer spoke
with him in jail, "he brought up-the topic of getting into the Sexually Violent Predator
Unit. He knew that he needed that kind of help. He knew that he was guilty of these
offenses." Defense counsel made no objection to these arguments, and Ronald was
subsequently convicted as charged.
For his convictions Ronald was sentenced as a persistent sexual offender to life
without the possibility of parole plus two (2) additional life sentences plus a seven
year sentence, with all sentences to be served consecutively.

Further facts necessary

for this petition will be set out in the grounds asserted below.

REASONS FOR GRANTING THE PETITION

I.

HAS A PETITIONER SUBSTANTIALLY SHOWN THE DENIAL OF A CONSTITUTIONAL
RIGHT WARRANTING ISSUANCE OF A COA WHEN THE DISTRICT COURT AFFORDS
DEFERENCE TO THE DETERMINATIONS OF THE STATE COURT, YET THE STATE
COURT RELIED ON THE OUTCOME DETERMINATIVE TEST TO FIND THAT THE ADMISSION
OF STATEMENTS OBTAINED BY THE DEFENDANT IN VIOLATION OF MIRANDA V. ARIZONA
WAS ERROR, BUT THEN APPLIED THE HARMLESS ERROR STANDARD TO FIND NO PREJUDICE
BASED ON MERELY SUBSTANTIAL EVIDENCE OF THE DEFENDANT'S GUILT?

The Missouri Court of Appeals found that the trial court erred by allowing
admission of Ronald's alleged statements to his parole officer asking for her help
in sending him to the Sexually Violent Predator Unit because Ronald had previously
invoked his right to silence pursuant to Miranda v. Arizona, 384 U.S. 486 (1966) and
his Fifth Amendment rights.

Despite finding error, however, the court concluded that

Ronald suffered no prejudice because there was no reasonable probability that the jury
would have reached a different conclusion had the evidence not been admitted,

In

reaching this conclusion, the state appellate court reiterated that it was applying the
"reasonable probability" standard, also known as the outcome determinative test,
Miranda violations require a more nuanced review for prejudice.
California, 386 U.S. 18 (1967).
5

See, Chapman v.

But

Here the state appellate court appeared to-apply the harmless error standard, but
then couched its conclusion in the context of the- outcome determinative test when it
opined there was no likelihood of a different outcome because of the other properly
admitted statements Ronald made to police; however, as is more fully discussed in
Question II below, the "other" statements to which the court referred were largely
admitted in violation of Doyle v. Ohio, 426 U.S. 610 (1976) and Ronald's rights under
the Fifth Amendment.

Finally, the "decisive effect" standard upon which the state

appellate court relied is actually a component of Missouri plain error jurisprudence,
see, e.g. State v. Dexter, 954 S.W.2d 332 (1997), not where, as here, the error was
preserved by objection and in a motion for new trial.
The improper admission of Ronald's purported statements was prejudicial because
evidence that he allegedly wanted help with placement in a sexual predator unit was
tantamount to a confession and "probably the most probative and damaging evidence"
against him.

See, Arizona v. Fulminante, 499 U.S. 279, 296 (1991).

Had the state

appellate court properly applied the harmless error standard when determining prejudice,
there is a reasonable probability that the outcome of Ronald's appeal would have been
different.
The district court below rejected this claim after it concluded that the state
court did not misapply federal law when determining prejudice from the Miranda violation
outlined above.

But in reaching its conclusion, the district court deferred to the

state court's determinations, despite the fact that the state court had conflated
application of the outcome determinative test to a Miranda violation,

Under the facts

here, Ronald made the requisite showing of the denial of a constitutional right as
required by 28 U.S.C. § 2253(c)(2) and deserving of "encouragement to proceed further"
in the Court of Appeals.

Slack v. McDaniel, 529 U.S. 473, 484 (2000) (quoted case

omitted).

6

II.

HAS A PETITIONER SUBSTANTIALLY SHOWN THE DENIAL OF A CONSTITUTIONAL RIGHT
WARRANTING ISSUANCE OF A COA WHEN THE DISTRICT COURT AFFORDS DEFERENCE TO
THE DETERMINATIONS OF THE STATE COURT WHICH FOUND NO PREJUDICE BY THE
IMPROPER ADMISSION OF THE DEFENDANT'S INVOCATION OF SILENCE IN VIOLATION
OF DOYLE V. OHIO, BUT DID NOT CONSIDER THAT THERE WERE NUMEROUS DOYLE
VIOLATIONS WHICH OCCURRED WITHOUT A CURATIVE INSTRUCTION BEING GIVEN?

For his appeal, Ronald asserted a claim that the trial court plainly erred and
abused its discretion by allowing admission of a video depicting his invocation of his
right to silence when confronted with allegations of sexual misconduct. During closing
argument, the prosecutor also reminded jurors of Ronald's invocation of his right to
silence and offered the following commentary: "Picture what an innocent person would
do. Picture the reaction of an innocent man and then remember the defendant's reaction
as he sat there and simply said, 'Tonight? t it
The state appellate court found this was plainly erroneous and a violation of
Ronald's rights under the Fifth Amendment and contrary to Doyle v. Ohio, 426 U.S. 610,
617-619 (1976).

Despite finding plain error, however, the state court found that

Ronald was not prejudiced ostensibly because "there was only one Doyle violation",
making it unlikely that the error had "a decisive effect on the jury" in light of the
"considerable" evidence of Ronald's guilt.
Although Ronald finds no clear standard of this Court for determining the
prejudicial effect of a Doyle violation, the Eighth Circuit has adopted the "harmless
beyond a reasonable doubt" standard for Doyle violations.
297, 304-305 (8th Cir. 1990).

See, Bass v. Nix, 909 F.2d

Here, the state appellate court correctly noted that there

are four key factors in Bass when assessing prejudice for a Doyle violation: (1) whether
the government made repeated Doyle violations; (2) whether any curative affort was made
by the trial court; (3) whether the defendant's exculpatory evidence was transparently
frivolous; and (4) whether the other evidence of the defendant's guilt was overwhelming.
Id.

(citations omitted).

7

Contrary-to the conclusion reached by the state appellate court

a competent

review of the -record; -reveals: .that- there were multiple Doyle violations in this case.
See, Doyle, 426 U.S. at 619 (A defendant can establish a violation by identifying thse
instances where the prosecution brought attention to his invocation of silence).

As

already discussed, jurors Were subjected to atnleast two instances whereby the state
prosecutor referred to Ronald s silence: (i) by virtue of the video depicting his
invocation of silence; and (ii) by the prosecutor's closing argument regarding Ronald's
reaction ^en confronted with the sexual misconduct allegations.

But there were arguably

other Doyle violations as well, including a video — admitted over objection by counsel —
depcting Ronald stating to detectives "I ain't got nothin' to say to them" and a
transcript of that video, both admitted as Exhibits 23 and 23T respectively, which the
jury was allowed to review during deliberations.
Not only do the above references to Ronald's silence account for at least four
violations under Doyle, but without a limiting instruction by the court there was nothing
to prevent the jury from repeatedly referring to the transcript and videos of Ronald's
statements.

Thus, not only were there multiple Doyle violations in this case, but no

curative effort was made by the court in order to mitigate the prejudicial effect of
those violations. See, Bass, supra, 909 F.2d at 305.
Having met the first two factors set out in Bass (whether there were repeated
Doyle violations and whether any curative instruction was given), Ronald's Doyle claim,)
next hinged on whether the evidence against him was "overwhelming."

Id.

Here, the state

appellate court rejected whether Ronald suffered any prejudice because the evidence
against him was "significant."

In reaching this conclusion, the state appellate court
dorfectly noted that Ronald had asserted a defense that his encounter with the complaining
witness, JW, was consensual; that there were no eyewitnesses; that there was no evidence
of forcible sexual conduct; and, that Ronald made no admissions that he had raped and
sodomized JW.
8

Based on the foregoing facts and circumstances, all four factors'identified in
■Bass were met- in this case; to wit: there were more than one Doyle violation; there'
was no curative instruction given by the court; Ronald's consent defense was not
frivolous; and, the evidence against him was nbt overwhelming but, as conceded by the
opinion of the state appellate court, "significant."
Rather than consider the number of Doyle violations Ronald suffered, the state
appellate court affirmed the judgment of the.post^conviction motion court which
inexplicably held that any objection by trial counsel on the basis of a Doyle violation
would have been "nonmeritorious"; however, as already discussed, the first direct review
court actually held that the trial court plainly erred by allowing admission of Ronald's
statements invoking his right to silence.
Ronald was also prejudiced because, given the number of times that the
prosecution repeatedly referred to his invocation of silence, it is highly likely if
not certain that jurors implicitly equated Ronald's Fifth Amendment plea with guilt
which, "in light of contemporary history, [is] far from negligible." Gruenewald v.
United States, 353 U.S. 391, 424 (1957).
In denying relief and a COA for the Doyle violations Ronald suffered, the
district court below adopted the reasoning advanced by repondent that claims for
habeas relief which are predicated on plain error are procedurally defaulted

see

Clark v. Bertsch, 780 F.3d 873 (8th Cir. 2015), and in any case constituted "harmless
error" in light of "the overwhelming evidence of his guilt."

Contrary to the district

court's conclusion, however, Ronald exhausted his Doyle claim by asserting it on direct
appeal, in a post-conviction proceeding, and in Ground Four

of his petition by alleging

the state court misapplied federal law when it found that any objection on the basis of
Doyle would have been nonmeritorious; therefore, trial counsel was not ineffective for
failing to object.

9

A certificate of appealability may issue only if the appellant has made "a
substantial showing" of the denial of a constitutional right.
565, 569 (1997).

Cox v; Norris, 133 F.3d

This means the appellant must show how the issue was resolved could

be be debated among reasonable jurists.
(2000) (quoted case omitted).

See, Slack v. McDaniel, 529 U.S. 473, 484

Ronald has shown that his Doyle claims should proceed

because jurists could debate how the issue was resolved, particularly because the
state appellate court never considered the number of Doyle violations and inexplicably
contradicted itself by concluding that any objection on the basis of Doyle would have
been meritless.
For the reasons stated above, Ronald prays the Court grant his petition on the
basis that he has made a substantial showing that he was denied his Constitutional
rights under the Fifth and Fourteenth Amendments as to warrant issuance of a Certificate
of Appealability and appellate review which considers the number of Doyle violations
as part of its prejudice analysis.

III. HAS A PETITIONER SUBSTANTIALLY SHOWN THE DENIAL OF A CONSTITUTIONAL RIGHT
WARRANTING ISSUANCE OF A COA WHEN THE DISTRICT COURT DOES NOT APPOINT
COUNSEL OR HOLD AN EVIDENTIARY HEARING ON A PETITIONER'S CLAIM BASED ON
NEWLY DISCOVERED EVIDENCE SHOWING PRIMA FACIE THAT COUNSEL APPOINTED TO
REPRESENT HIM AT ALL CRITICAL STAGES OF STATE COURT PROCEEDINGS SUFFERED
FROM A CONCURRENT CONFLICT OF INTEREST FALLING WITHIN CUYLER V. SULLIVAN
BY ASSIGNMENT OF TOO MANY CASES, WHICH THE STATE SUPREME COURT HAS HELD
INEVITABLY CREATES THE VERY CONFLICT OF INTEREST UNDER WHICH COUNSEL
LABORED?
Ronald was represented at trial, on appeal and for his post-conviction
proceedings in the underlying state criminal matter by counsel appointed by the
Office of the Missouri Public Defender ("MSPD").

After the conclusion of all state

court proceedings, Ronald delivered a letter to MSPD complaining about the performance
of his appointed counsel.

On March 31, 2017, MSPD Deputy Director J. Gregory

Mermelstein sent Ronald a reply.

10

In response to Ronald's complaints, inter alia, about the numerous Doyle
violations his trial and appellate attorneys overlooked, Mr. Mermelstein conceded
that, although MSPD "attorneys try to do a good job for [their] clients", they only
succeed "sometimes" because "all [MSPD] attorneys have too many cases."

(See

Appendix D).
It is not only a violation of the Missouri Supreme Court's Rules of Professional
Conduct for an attorney to represent an excessive number of clients, but the Missouri
Supreme Court has held that a disqualifying conflict of interest "is inevitably created"
when a public defender is compelled by an excessive caseload to choose between the
rights of the various indigent defendants he or she is representing.

See, State ex rel.

Mo. Pub. Defender Comm'n v. Waters. 370 S.W.3d 592, 608 (Mo. 2012) (quoted case omitted).
Crucially, a "conflict of interest" that affects the adequacy of the legal
representation an indigent defendant receives is not merely a state law issue; rather,
it necessarily implicates an overarching federal interest in a defendant's right to the
effective assistance of conflict-free counsel.
355 (1980);

See, Cuyler v. Sullivan, 466 U.S. 335,

U.S. Const., IV Amend.

Underscoring Ronald's assertion that the MSPD and its arrotneys must labor
under the crushing weight of too many cases and not enough resources, not even the
MSPD is able to articulate how many cases were assigned to his counsel, leaving the
MSPD with "no way to give [him] the number" of cases he seeks to emphasize here.
(See Appendix E).

To Ronald's benefit, however, absent the actual number of cases

that each counsel had been assigned during all critical stages of his state court
proceedings, it is impossible to qualify any assertions that the public defenders who
were appointed to represent him were not working under an excessive number of cases
which affected the quality of the representation he received and deprived him of the
assistance of effective counsel.

Cf. Strickland v. Washington, 466 U.S. 688, 687-688

(1984).
11

Compounding the dire circumstances indigent Missouri defendants., uilike Ronald,
must navigate toward their ultimate conviction, Missouri has consistently "ducked its
constitutional and moral responsibility to provide poor defendants with adequate legal
counsel" even to this day, thereby continuing the legacy of conflicted attorneys having
to choose one defendant over another with respect to the quality of the representation
they will receive.

(See Appendix F).

Instead of appointing conflict-free counsel to represent Ronald and thereafter
hold an evidentiary hearing on his conflict of interest claim, see, Wood v. Georgia,
450 U.S. 261 (1981) (Mere "possibility of a constitutional violation" arising from a
potential conflict of interest requires reversal if a court fails to undertake an
inquiry) Id. at 272 & n. 18, the district court below denied this claim on the bases
that it was procedurally barred because it was not raised in state court, and because
Ronald could not demonstrate prejudice for his claim that counsel were "ineffective."
Foremost, where, as here, information regarding counsel's conflict of interest
does not come to light until after all state court proceedings, "cause" is established
to overcome any procedural default for that claim.

See, Murray v. Carrier, 477 U.S.

478, 488 (1986) (A petitioner can demonstrate cause to overcome a procedural default
if the factual basis for the claim asserted was not reasonably available during state
court proceedings).
Further, to the extent that the district court found that Ronald had failed to
demonstrate prejudice only serves to underscore why a petitioner asserting a conflict
of interest claim should be entitled to appointment of conflict-free counsel and an
evidentiary hearing if the petitioner has made a colorable claim or prima facie
showing of counsel's conflicts of interest.

12

If the reasoning of the district court was applied 'in wholesale fashion to
r all.claims asserting a conflict of interest, it would require indigent defendants like
Ronald to: (a) rely on the very same appointed counsel who labors under a conflict of
interest to identify their own conflict and articulate how their objectively deficient
performance affected the adequacy of the representation the defendant received; or
(b) assume the role of counsel in order to identify, as a lay person from a cold record,
the errors and omissions constituting the deficient performance of their conflicted
public defender.
Under the facts in this case, Ronald has asserted a colorable claim and made a
prima facie showing that his appointed trial, appellate and post-conviction counsel all
labored under a concurrent conflict of interest by assignment of too many cases, thereby
affecting the quality of the representation he received in the underlying state criminal
matter, and depriving him of his rights to the effective assistance of counsel, a fair
trial and due process of law as guaranteed by the Sixth and Fourteenth Amendments.
The Eighth Circuit Court of Appeals denied Ronald's petition for COA to review
the district court's decision denying this claim.

Under 28 U.S.C. § 2253(c)(2), a

certificate of appealability may issue only if the appellant has made "a substantial
showing" of the denial of a constitutional right.
(8th Cir. 1997).

Cox v. Norris, 133 F.3d 565, 569

This is a "modest standard." Randolph v. Kemna, 276 F.3d 401, 403,

n. 1 (8th Cir. 2002).

As this Court explained in Slack v. McDaniel, in determining

vfliat constitutes the requisite showing for obtaining leave to appeal a district court's
decision denying habeas relief, an appellant must "show that reasonable jurists could
debate whether the petition should have been resolved in a different manner or that the
issues presented were 'adequate to deserve encouragement to proceed further.

iM

473, 484 (2000) (quoting Barefoot v. Estelle, 463 U.S. 880, 893 & n. 4 (1983)).

13

529 U.S.

When a district court rejects a constitutional claim on the merits or on
procedural grounds, to obtain a GOA an appellant must demonstrate both that: (a) the
dispositive ruling is debatable; and (b) the claim.of the denial of a constitutional
right is debatable as well.

Slack, 529 U.S. at 484-485.

In Barefoot this Court

elaborated on the standard for issuance of a COA as follows:
In requiring a question of some substance, or a substantial showing of the
denial of a federal right, obviously the appellant need not show he should
prevail on the merits. He has already failed in that endeavor. Rather he
must demonstrate that the issues are debatable among jurists of reason; that
a court could resolve the issues in a different manner; or that the questions
are adequate to deserve encouragement to proceed further.
Barefoot, supra, 463 U.S. at 893 & n. 4 (quotations removed; citation omitted).
Based on the foregoing, Ronald prays the Court find he has made a substantial
showing of the denail of his constitutional rights under the Sixth and Fourteenth
AMendments to the effective assistance of counsel and due process of law such that
issuance of the COA is appropriate so that the Court of Appeals may appoint conflictfree counsel and convene an evidantiary hearing on Ronald's conflict of interest claim.

IMPORTANCE OF THE QUESTIONS PRESENTED

This case presents fundamental questions regarding the application of this
Court's decisions in Brecht v. Abrahamson, 507 U.S. 619 (1993), Doyle v. Ohio, 426 U.S.
610 (1976), Strickland v. Washington, 466 U.S. 668 (1984), and Slack v. McDaniel, 529
U.S. 473 (2000) and their progeny with respect to the standard by which prejudice will
be assessed, the adverse effect of represted references to a defendant's invocation of
silence, and whether the negative impact on the adequacy of the representation an
indigent defendant receives from conflicted appointed counsel requires appointment of
conflict-free counsel and an evidentiary hearing on a petitioner's conflict of interest
claim.
14

CONCLUSION

For the questions presented and for the reasons stated, Ronald prays this
Court grant a Writ of Certiorari in this matter.

Ronald further prays for any

other and further relief the Court may deem appropriate under the circumstances.

Respectfully submitted,

19Ronald W. Greer #165571
Western Missouri Correctional Center
609 East Pence Road
Cameron, Missouri 64429

15

